U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Richard L. Alexis v. William P. Barr, Attorney General
S.Ct. No. 20-11

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 7, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on August 10, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0011
ALEXIS, RICHARD L.
WILLIAM P. BARR, ATT'Y GENERAL

MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM

